HHS/OIG, Audit - "Follow-Up Audit of the Medicaid Drug Rebate Program in
North Dakota," (A-07-08-03105)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-Up Audit of the Medicaid
Drug Rebate Program in North Dakota," (A-07-08-03105)
April 15, 2008
Complete Text of Report is available in PDF format (1.48 mb).
Copies can also be obtained by contacting the Office of Public Affairs at
202-619-1343.
EXECUTIVE SUMMARY:
In a follow-up audit of North
Dakotas Medicaid drug rebate program, we found that the State had partially
implemented procedures to correct the weakness relating to billing and tracking
$0 unit rebate amounts (URA) that we identified in our previous audit.
Manufacturers may make their outpatient drugs eligible for Federal Medicaid
funding by entering into a rebate agreement with CMS and paying quarterly
rebates to the States.  We also found that the State did not have a mechanism to
adequately monitor disputed drug rebates.  Further, the State did not have
written policies and procedures governing the calculation of interest on unpaid
balances from drug manufacturers and generally lacked written policies and
procedures over the drug rebate program.  Finally, although the State had
established controls over collecting rebates on single-source drugs administered
by physicians, the procedures did not fully comply with the Deficit Reduction
Act of 2005 (DRA).
We recommended that the State develop procedures to track $0 URA line items and
notify manufacturers when they fail to remit proper URA payment; track open and
closed disputed drug rebates and make the States hearing mechanism available to
manufacturers; invoice manufacturers for interest
when appropriate; and properly report all rebates invoiced, rebate collections,
and accounts receivables to ensure that CMS receives accurate drug rebate
information.  We also recommended that the State ensure that it complies with
the DRAs timeframes for invoicing physician-administered drugs.  Finally,
we recommended that the State invoice manufacturers for single-source
physician-administered drugs as required by the DRA and the State Medicaid
Manual.
The State did not specifically address our findings and recommendations
but said that it would develop written procedures regarding the drug rebate
program and procedures specific to physician-administered drugs.  The State also
said that it had invoiced manufacturers for single-source physician-administered
drugs.